                                U.S. COMMODITY FUTURES TRADING COMMISSION
                                                     Three Lafayette Centre 

                                          1155 21st Street, NW, Washington , DC 20581 

                                                  Telephone: (202) 418-5110 

                                                   Facsimile: (202) 418-5522 

                                                            www.c ft c.gov


   Office of the                                        June 4, 20 14
Inspector General


      TO: 	              Acting Chairman Mark P. Wetjen 

                         Commissioner Scott D. O' Malia 


      FROM: 	            A. Roy Lavik, Inspector Genera!O..             R-.£_
      SUBJECT: 	         Review of Leasing and Occupancy Levels in Kansas City at the Commodi ty
                         Futures Trading Commission


      The CFTC presently utilizes approximately one-third of its Kansas C ity Regional office space; it
      has 25 staffworking in office space that acco mmodates 78. Rental payments average
      approximately $44,000/month, meaning the CFTC will pay $5.3 million over the life of the 10
      yea r lease. At current utilization rates, two-thirds of that amount- approximately $3.6 million ­
      will be paid for vacant office space.

      Our primary recommendation is that the CFTC take imm ediate steps to dispose of the excess
      space. Our secondary recommendation is for the CFTC to review its underutilized space in other
      regional offices and headquarters. Though not the focus of this review, we note that the problem
      ofunderuti lization is not limited to Kansas City. Over the life of its leases the CFTC will spend
      over $200 million; assuming a goa l of95% occupancy' and absent remediation, approximately
      32%- or $64,000,000 - will be spent to lease vacant offices.

      On March 31, 20 14, our Office issued a draft report to CFTC Management for comm ent; we
                                                2
      rece ived their respon se on May 14, 2014. We disagreed with CFTC Management's views, but
      CFTC Management subsequently informed our Office that it had approached the landlord in
      Kansas City in an effort to return space. We view this as a positive step. We also thank CFTC
      Management for its effo rts in its May 14 response to correct what it perceived as factua l errors
      and omissions, and we have addressed many of the comments in our final review.

      CFTC Management acknowledged in its May 14 response that there is excess vacant space in the
      Kansas City Office; however, it stated that the lease of so many vacant offices had been and
      remained a justifiable expense on the basis that CFTC 's requested budgets since 2011- if only
      they were appropriated - would be suffi cient to fi ll the vacant space. CFTC Management
      intended to maintain the vacant space for the "foreseeable future" so long as future funding

      1
       Whi le there are apparently no occupancy requirements for federal leased space, we believe the goa l of95%
      occupancy wi ll res ult in the greatest efficiency.
      2
          Attached as Appendix 2.
increases are not "eliminate[ d) ... from the realm ofpossibi lity."

We believe this is an instance of hope trumping experience. Over each of the last three fiscal
years, Congress has given the CFTC approximately 66% of its budget requests, which represents,
for example, a FY 2014 budget of $2 15 mil where CFTC requested $315 mil, and FY 20 13 and
2012 budgets of$205 mil where CFTC requested $308 mit ? Given the shortfa ll between CFTC
budget requests and Congress-approved budgets si nce FY 2012, we do not believe that the
" realm of possibility" is the appropriate metric by wh ich CFTC Management should base its
decision to spend taxpayer dollars on vacant offices. As we express in our review:

         It may be that immediately after downsizing, the CFTC will receive an
         appropriation sufficient to comp letely fill the space that it no longer has. This
         would not change our reasoning; we believe that the CFTC and public are better
         served by the risk of a temporary shortage of space, than a 100% certainty of
         spending substantial taxpayer dollars on the lease of vacant offices.

CFTC Management also suggested that " if it appears no additional funding w il l be forthcom ing
in our FY 2015 Budget request, we will pursue alternati ves as suggested in the OIG Study."
This seemed positive, but CFTC Management maintained throughout our fieldwork that the
"next" appropriation would intluence its strategy with regard to the maintenance of this Jease. 4

We appreciate CFTC Management's subsequent decis ion to approach the Kansas City landlord
in an e1Tort to reduce excess space and approve of this apparent shift in management response to
our rev iew, but we have no fu rther details at this time. We intend to moni tor the s ituati on
moving forward .




Attachment: 	 Review of Leasi ng and Occupancy Levels in Kansas City at the Commod ity
              Futures Trading Commi ssion

cc (w/att.): 	    Tony Thompson, Executi ve Director


3
 CFTC's budget requests are ava ilable at http://www.cfkgov/About/CFT CReports/cft:creports historical. CFTC
appropriations are at: 11 3 P.L. 76, 128 STAT. 5 (FY 2014), 11 3 P.L. 6, 127 STAT. 198 (FY 201 3), 11 2 P.L. 55,
12 5 STAT. 552 (FY 20 12).

4
  Prior to appropriation of the FY 20 14 CFTC budget, and during our fie ldwork for thi s re vi ew, CFTC Management
stated , " [i] fCFTC receives the requested amount in the FY20 14 President' s Budget there wi ll be no excess space,"
and stated, " [i] f it appears the CFTC will not achie ve the anticipated staff leve ls in the near fut ure, we w ill
reconsider a ll options." CFTC Space Acqu isition and Utilization Plan, December 30, 20 13 (Appendix I).
U.S. Commodity Futures Trading Commission                     REDACTED
Office of the Inspector General                                 byCFTC




     A Review of Leasing and Occupancy Levels of the Kansas City
     Regional Office of the Commodity Futures Trading Commission




                                 Prepared by the
                                 Office of the Inspector General
                                 Commodity Futures Trading Commission

                                 June 4, 2014




      This CFTC OIG Report is subject to the provisions of the
      Privacy Act of 1974, 5 USC § 552a, and has been redacted as
      determined by the Commodity Futures Trading Commission.
      The redactions are not determined by the CFTC OIG.
U.S. Commodity Futures Trading Commission                                                         REDACTED 

Office of the Inspector General                                                                     byCFTC 




                                        Executive Summary
In September of 2010, the CFTC signed a new lease in Kansas City, relocating to offices
adjacent to the Kansas City Board of Trade and expanding the CFTC's Kansas City office space
by 300%. As of the date of this review, the Kansas City office has 25 staff in a space that
comprises 78 offices and cubicles, six large rooms dedicated to other uses such as conferences,
and 15 rooms labeled as "non-occupiable," which include various support rooms such as storage
and filing. This level of utilization has been broadly steady since the lease commenced. With
rental payments averaging approximately $44,000/month, the CFTC will pay $5.3 million over
the life of the ten-year lease. At current utilization rates, 68% of the total lease cost ­
approximately $3.6 million- will be paid for vacant office space.

Planning for this expansion began in 2009, and the decision to move forward was predicated on
the expectation of additional appropriations from Congress. 1 That same expectation apparently
underlies the CFTC's decision each year to decline to take steps to minimize its expenditures on
empty offices. Beginning in 20 12, about a year after the lease commenced, we expressed our
concerns to the Chairman's office and relevant staff and raised the issue in a report, urging "the
Agency to monitor staffing levels in the Kansas City field office in the future and to address
space issues on its own initiative."2 We reiterated our concerns in early 2013, when the Kansas
City Board of Trade was scheduled to be closed. 3 In March of 20 13, seeing no progress, we
formally noted our concerns in our semi-annual report to Congress. 4 In September 2013, we
conducted an on-site inspection of the Kansas City office and observed that the underutilization
of office space remained unchanged. Accordingly, we initiated this review.

This review concludes that underutilized space in Kansas City is an expense that should not be
maintained. We make two recommendations. We'recommend that the CFTC take immediate
steps to dispose ofunderutilized property in Kansas City. We also recommend that the CFTC
initiate a review of underutilized space in the other regional offices and at headquarters, to
determine if similar actions are warranted.




1
  This expectation was based at least in part on the anticipation of financial regulatory reform. Dodd-Frank Wall
Street Reform and Consumer Protection Act, Public Law 111-203, 124 Stat. 1376 (2010) ("Dodd-Frank Act" or
"Dodd-Frank") (http://www.cftc.gov/LawRegulation/DoddFrankAct/index.htm). All internet addresses cited in this
report were last visited on June 3, 2014.
2
  A Review of75 Purchases by the Commodity Futures Trading Commission: March 2011-March 2012, page 9,
fn.24 (http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/oig finalreview 122112.pdf).
3
 See CME Will Put Kansas City Board ofTrade Building Up for Sale, March 21, 2013, Kansas City Business
Journal. Available at: http://www.bizjournals.com/kansascitv/news/20 13/03/21 /cme-will-put-kansas-city-board­
of.html.
4
 CFTC Semiannual Report ofthe Office of the Inspector General for the Period Ending March 31, 2013, at page 9
(http://www.cftc.gov/ucrnlgroups/public/@aboutcftc/documents/file/oigsar033113.pdf).



                                                        11
U.S. Commodity Futures Trading Commission 	                                                                                       REDACTED
Office of the Inspector General                                                                                                     byCFTC



                                                      Table Of Contents 


Executive Summary ........................................................................................................................ ii 

Introduction, Scope, and Methodology ........................................................................................... 1 

Background ..................................................................................................................................... 2 

   Legal Background ....................................................................................................................... 2 

   Factual Background .................................................................................................................... 4 

   The CFTC's Expansion In Kansas City ...................................................................................... 5 

Findings .......................................................................................................................................... 6 

   CFTC Management Believes Its Leasing Decisions Are Justified ............................................. 6 

   CFTC Management States That Its Leases Are Justified By Its Requests For Higher Budgets 6 

   CFTC Management States That There Are No Circumstances Under Which The CFTC Would 

   Benefit From Subleasing Or Returning Space To The Landlord ............................................... 7 

       The CFTC Could Not Keep The Proceeds From A Sublease ................................................. 7 

       The CFTC's Up-Front Costs To Sublease Would Be $1.3 Million ........................................ 8 

       It Would Not Be Cost Effective To Return Space To The Landlord ...................................... 8 

   CFTC Management States That It Is Inadvisable To Open An Office On The West Coast .... 10 

   The CFTC's Recent Actions With Respect To The Kansas City Lease ................................... 11 

Conclusion .................................................................................................................................... 13 

Recommendations......................................................................................................................... 13 

APPENDIX 1................................................................................................................................... . 

   CFTC Space Acquisition and Utilization Plan ............................................................................ . 

APPENDIX2 ................................................................................................................................... . 

   OED Response to the March 31, 2014, OIG Review ofLeasing and Occupancy Levels ofthe 

   Kansas City Regional Office ofthe CFTC- Discussion Draft.................................................... . 

APPENDIX 3 ................................................................................................................................... . 

   Maps ............................................................................................................................................. . 





                                                                         111
U.S. Commodity Futures Trading Commission                                                        REDACTED
Office ofthe Inspector General                                                                     byCFTC



                        Introduction, Scope, and Methodology
This review focuses on occupancy rates in the CFTC's western-most office of Kansas City. Our
objectives were: ( 1) to rev iew the current occupancy rates in the Kansas City Regional Office;
and (2) to review th e efforts the CFTC has made to minimize the cost to taxpayers of lease
payments for vacant offices. We chose to focus on Kansas City because its occupancy rates are
the lowest of any CFTC office by a substantial margin, and because the potential remedies there
appear to be the clearest. However, we may consider a more expansive review over the coming
months that includes the other offices.

To complete our review, we interviewed 17 individuals in Enforcement, the Division of Swap
Dealer and Intermediary Oversight, the Office of Data and Technology, and the Office of the
Executive Director, including individuals within the sub-offices ofFinancial Management,
Logistics and Operations, and Procurement. Some witnesses were interviewed on multiple
occasions. We requested and reviewed the relevant leasing documents, procurement documents,
and architectural drawings, as well as other documents and CFTC communications concerning
the Kansas City expansion. We researched pertinent legal principals including federal leasing
rules and standards, independent leasing authority, Government Accountability Office ("GAO")
reports and testimony, and government-wide efforts to increase agency efficiency with respect to
real estate. Finally, we reviewed the recent history of CFTC leasing.

We note that Gary Gensler, former chairman of the CFTC and perhaps the most important
witness5 with respect to leasing and staffin g decisions over this period, did not respond to our
requests for an interview made to him directly by email, and indirectly through his former Chief
 ..........~,,·,... Officer  ·     and current Executive Director (Tony Thompson).6 We note
that                        former                the Office of the Executive Director, and a key
witness with respect to leas                   decisions in this period, declined to be interviewed.8
Lacking subpoena authority, we cannot compel a statement; consequently, this and possible
supplemental reviews ofCFTC leasing will be incomplete. We note that Madge Bolinger­
Gazzola, the CFTC's former Executive Director who presided during the period when the
Kansas City lease was negotiated, cooperated fully. OED has fully cooperated with our review.

s Numerous witnesses infonned that Chainnan Gensler was involved in the leasing process and was the ultimate
decision maker with respect to the entry and maintenance ofthe Kansas City lease.
6
  Fonner Chainnan Gary Gensler's last day with the CFTC was January 4, 2014. Our Office emailed a request for
an interview on Jan 30, 2014, to Mr. Gensler's personal email address. Mr. Gensler did not respond. Mr. Gensler's
fonner chiefofstaffstated in February that he had spoken with Mr. Gens ler by phone, but opined that he did not
think he was the right point ofcontact for releasing personal contact infonnation, and we continued to receive no
response. On March 8, 2014, the current Executive Director conveyed that to d!ate, he had received no reply from
the Chainnan per his attempts to communicate with him on this matter.
7
 Numerous witnesses infonned that ~as heavily involved in the leasing process, helping to
coordinate the teams of employees who gathered and presented infonnation to the Chainnan.
8
 -             retired while fie ldwork for this review was ongoing. We e m a i l e d - requests for an
interview on January 30, 20 14, and again on March 8, 2014. On each occasion, she declined.
U.S. Commodity Futures Trading Commission                                                           REDACTED
Office of the Inspector General                                                                       byCFTC


We therefore address, but do not make findings on, the decision-making process that led the
CFTC to enter into the Kansas City lease.9 We decline to address, for now, the occupancy rates
in other CFTC offices. However, we note that over the ten-year life of the CFTC's four current
leases we estimate that CFTC will spend over 200 million dollars, and that the nationwide
      '                                             10
occupancy rate at the CFTC appears to be just 63%.


                                                  Background
Legal Background
                                                                                                            11
The problem of empty and underutilized office space is by no means limited to the CFTC.
Congressional inquiries, committee hearings, as well as numerous articles in the press have
discussed this issue; indeed, some agencies are apparently not aware of all of the real estate they
own or lease. 12

In January 2003, the GAO designated federal real property as a high-risk area, citin~ the
                                                                                       3
government's overreliance on costly, long-term leasing as one of the major reasons. More
recently, GAO declared that, "[t]he federal government faces long-standing problems in
managing real property, including an overreliance on leasing, and excess and underutilized
property." 14 With regard to excess and underutilized space, GAO stated that "agencies often do
not have a strong understanding of the real property held by other agencies and may lack the
authority or expertise to lease their own underutilized property to other federal agencies." 15
GAO noted that the agencies it reviewed "have taken some actions to dispose of and better
manage these properties, including using excess and underutilized property to meet space needs,



9
     However, we will consider examining this issue in a supplemental review.
10
 Assuming current staffing levels and no remedial action, over $74,000,000 will be spent to lease vacant offices.
Occupancy percentages throughout this review come directly from the electronic database used by the CFTC to
manage its space. Our visual inspection of the Kansas City office space was in line with the CFTC database.
11
  See GAO report, Federal Real Property: Excess and Underutilized Property Is an Ongoing Challenge
(http://www.gao.gov/products/GA0-13-573T).
12
 E.g., U.S. House Committee on Oversight and Government Reform, Subcommittee on Government Operations,
Government Operations Oversight: Addressing Unused and Vacant Federal Property, Hearing
(http://oversight.house.gov/hearinglgovernment-operations-oversight-addressing-unused-and-vacant-federal­
propertvO Article: http://www.whitehouse.gov/blog/20 11 I 10/20/sale-cutting-waste-getting-rid-excess-real-estate,
Article: http://cagw.orglmedia/wastewatcher/time-get-real-federal-property,
13
  Federal Real Property: Strategy Needed to Address Agencies' Long-standing Reliance on Costly Leasing, GA0­
08-197 (January 2008) (http://www.gao.gov/assets/280/271449.pdt).
14
  Federal Real Property: High-Risk Designation Remains due to Persistent Management Challenges, GA0-13­
422T (February 20 13) (http://www.gao.gov/products/GA0-13-422T).
15   ld.



                                                           2

U.S. Commodity Futures Trading Commission                                                               REDACTED
Office of the Inspector General                                                                           byCFTC

consolidating offices to use space efficiently, and reducing employee workspace to use space
more efficiently." 16

The General Services Administration ("GSA") is responsible for creating rules and standards
                                                                                         17
governing federal leasing, and it assists agencies by negotiating leases on their behalf. Some
agencies, like the CFTC, have independent leasing authority and negotiate their own leases
without reference to GSA. 18 But independent leasing authority is more than the ability to
separately negotiate leases; it also includes independence from GSA rules and regulations
designed to, for instance, minimize government waste. Exercising that independence, the CFTC
declined until February of2011 to develop any written leasing standards or procedures of its
own. Consequently, there appear to have been no CFTC or other written rules that directly
governed the CFTC's leasing process. 19

Over the years, however, Presidents of the United States have issued executive orders to reform
and improve federal leasing standards. In general, these require government agencies to
efficiently utilize space.2° Some are more specific, requiring agencies to reduce the amount of
work space to that which is essential for known agency missions, and ensuring that the amount

16   !d.
17
     The Comptroller General has described the process by which the government leases real property as follows:
           Congress has centralized in GSA the authority to lease real property and facilities for the use of federal
           agencies. The Federal Property and Administrative Services Act of 1949 (FPASA) transferred to GSA the
           authority to lease real property and facilities on behalf of the federal government, subject to several
           exceptions not relevant here. FPASA, ch. 288, § 3, 63 Stat. 377,378 (June 30, 1949), as amended, codified
           in 40 U.S.C. § 585. As presently written, this authority allows GSA, on behalf of all federal agencies, to
           enter into leases of real property and facilities to meet the government's needs for periods of up to 20 years
           and to obligate fiscal year funds without violating the Antideficiency Act, 31 U.S.C. § 1341(a)(1)(B). 40
           U.S.C. § 585. See B-309181, Aug. 17,2007.
Matter of: National Transportation Safety Board--Application of Section I 072 ofthe Federal Acquisition
Streamlining Act (41 U.S.C. § 254c) to Real Property Leases, B-316860, 2009 U.S. Comp. Gen. LEXIS 89, April
29, 2009 (http://www.gao.gov/decisions/appro/316860.htm).
18
  Without specific statutory authority and absent a delegation of authority from GSA, a federal agency may not
lease real property or facilities for its own use or on behalf of any other government entity. Matter of: Interagency
Agreements-- Use of an Interagency Agreement between the Counterintelligence Field Activity, Department of
Defense, and GovWorks to Obtain Office Space, B-309181, 2007 U.S. Comp. Gen. LEXIS 143, Aug. 17,2007,
(http://www.gao.gov/decisions/appro/30918l.htm).
19
  The lease in Kansas City was negotiated prior to February of2011. CFTC Management states that it followed the
same standards prior to 2011, but had not reduced them to writing. We note that the written standards focus on the
initial leasing process, and do not address any circumstances under which the CFTC should reassess its space needs
- due, for instance, to underutilization or changed budgetary circumstances.
20
  Executive Order 13576--Delivering an Efficient, Effective, and Accountable Government, June 13, 2011,
(requiring "frequent data driven reviews" of, among other things, "improving the management of Federal real
estate"). Available at: http://www. whitehouse.gov/the-press-office/20 11 /06/13/executive-order-13 576-delivering­
efficient-effective-and-accountable-gov; Executive Order 13589-- Promoting Efficient Spending, November 9,
2011, (requiring agencies to "act in a fiscally responsible manner, including by minimizing their costs ...").
Available at: http://www. whitehouse.gov/the-press-office/20 11 I 11109/executive-order-13 5 89-promoting-efficient­
spending.



                                                            3

U.S. Commodity Futures Trading Commission                                                          REDACTED
Office of the Inspector General                                                                      byCFTC
                                                                                         21
of office space per person is the minimum necessary to accomplish the task. For instance, in
February of 2004, the President signed Executive Order 13327 (EO 13327) which, among other
things, established a Federal Real Property Council to address issues in property acquisition and
management, including adding as a performance measure for covered Agencies "changes in the
amounts of vacant Federal space."22 Similar in purpose to the Executive Orders, President
Obama issued a Presidential Memorandum on June 10, 2010, requiring agencies to dispose of
unneeded federal real estate. 23 This included a specific directive to "take immediate steps to
make better use of remaining property assets as measured by utilization and occupancy
rates ...." 24

Finally, we have the OIG's own regulatory mandate to detect and prevent waste and abuse, and
to recommend policies designed to promote economy, efficiency, and effectiveness in
                                                          25
connection with programs and operations of the Agency. In sum, despite the absence of
written rules requiring minimum levels of utilization or reassessment of leases in light of
changed budgetary assumptions, the CFTC must still strive to limit waste in this area.


Factual Background

CFTC staffing levels reached a relative peak of 560 full-time employee equivalents in 1998. At
that time, the CFTC had regional offices in Los Angeles, Minneapolis, Kansas City, Chicago,
and New York, along with its headquarters in Washington D.C. By 2008, the CFTC looked
markedly different. The Los Angeles office closed in June of2003, 26 while the Minneapolis
office closed just a few years later in 2007. Of the remaining four offices, the farthest West was
in Kansas City, Missouri, leaving the CFTC without an office in the westerly two time-zones in
the continental United States. Also during this period, staffing levels decreased by more than
20%, to a low of 437 in 2007. By 2008, staffing levels had recovered to 449.

Beginning in 2008, a number of events occurred in U.S. markets that increased attention on the
CFTC and other financial regulatory agencies by Congress and the public?7 In 2009, the Dodd­

21
  Executive Order 12411 --Government work space management reforms, March 28, 1983, (requiring agencies "to
institute fundamental changes in the manner in which Federal work space is managed to ensure its efficient
utilization.") Avail able at: http://www.archives.gov/federal-register/codification/executive-order/12411.html.
22
  EO 13327 is available here: http://www.gpo.gov/fdsys/pkg/FR-2004-02-06/pdf/04-2773.pdf. EO 13327 did not
apply to CFTC. The other Executive Orders cited in this paper did apply to CFTC.
23
  Presidential Memorandum--Disposing of Unneeded Federal Real Estate, June 10,2010, available at:
http://www.whitehouse.gov/the-press-office/presidential-memorandum-disposing-unneeded-federal-real-estate.
This memorandum applied to CFTC.
24   !d.
25
     5 USC App. 3, § 2(1).
26
     See Review of the Need for Western Regional Office in Los Angeles, CFTC OIG, June 19, 2006.
27
  Among others, oil prices reached an all-time high of$147.27 per barrel, Bear Stearns and Lehman Brothers
collapsed, numerous bailouts totaling hundreds of billions of dollars occurred due to the failure ofmortgage-backed
securities, and the U.S. economy entered into the so-called Great Recession.



                                                         4

U.S. Commodity Futures Trading Commission                                                        REDACTED
Office of the Inspector General                                                                    byCFfC

Frank Wall Street Reform and Consumer Protection Act was ftrst introduced; it proposed an
expansion of the CFTC's jurisdiction into swaps and derivatives markets. At the same time, the
CFTC began to experience budget increases. For instance, in FY 2009, the CFTC budget
increased from $112 million to $146 million28 and increased again to $168.8 million in FY
2010?9

It was in this setting that the CFTC ftrst discussed an expansion to accommodate the new and
    · ·      hires. The Office ofthe Executive Director, Jed by Madge Bolinger-Gazzola and.
                            determined that there would be inadequate office space across the CFTC
                         , and substantial shortfalls if the CFTC's hiring goals were met for FY
2010. Accordingly, in March of2009, CFTC Management began a planning, acquisition and
                                                    30
construction project to increase available space.


The CFTC's Expansion In Kansas City

In 2009, the CFTC Kansas City office had approximately 27 staff in a space measuring 8066
SF.3 1 All interviewed agreed that that the space had been overcrowded. The CFTC initially
planned to expand by approximately 8,000 SF, to a total of 16,000 SF.32 Sometime later, this
changed to a range between 17,000- 22,000 SF.33 The CFTC eventually signed a lease for
approximately 24,000 SF; included in the lease were a right of ftrst refusal on an additional
estimated 7,500 SF and an option on an additional estimated 16,000 SF.34

As of the date ofthis review, the CFTC employs 25 staff in Kansas City. The space comprises
one and one half floors, with 78 offices and cubicles, six large rooms dedicated to other uses, 35
and 15 rooms labeled as "non-occupiable," which include various support rooms such as storage


21
     Public Law 111-8 [H.R. II 05] MAR. II, 2009, Omnibus Appropriations Act, 2009.
29
 Public Law 111-80 [H.R. 2997] OCT. 21, 2009, Agriculture Rural Development Food And Drug Administration
And Related Agencies Appropriations Act, 2010.
3
    °CFTC Management Memorandum dated March 5, 2009, signed                                   OMO.
31
     CFTC Kansas City Lease from Board ofTrade Building, Inc., dated September 2010.
32
  CFTC Management Memorandum dated January 27, 2009, signed by Madge Bolinger-Gazzola, titled "Extension
ofCFTC's DC Office Space Lease," at 6.
33
     CFTC Solicitation Number: CFFM-1-S0-0144, posted April26, 2010, at I.
34
  CFTC Kansas City Lease from Board ofTrade Building, Inc., dated September 2010. While beyond the scope of
this review, we note that no witness who agreed to be interviewed was able to explain the origin ofthe initial
estimate of 16,000 SF, the change to 17,000 - 22,000 SF, or why the CFTC ended up with a property of more than
24,000 SF, plus a right of first refusal and an option totaling an additional estimated 24,000 SF.
35
  On the floor maps, there are six large rooms that are not offices, in which groups of people may meet to discuss
CFTC issues. Two are labeled as conference rooms; the others are labeled as follows: a training room, a VTC
(video teleconferencing) room, a "war room" and a "break room ." CFTC Management recently informed our Office
that the conference rooms are heavily utilized. We thank CFTC management for this information, but did not verify
the assertion due to time limitations.



                                                        5

U.S. Commodity Futures Trading Commission                                                           REDACTED
Office of the Inspector General                                                                       byCFTC

and filing_3 6 The half floor comprises 17 window offices, eight inner offices, four cubicles, and
two conference rooms, as well as a copy room, a pantry/kitchen, a storage room, and a filing
room.

                                                  Findings
CFTC Management Believes Its Leasing Decisions Are Justified
                                                                                               37
In the second half of 2013, we notified the Executive Director, Tony Thompson, that we had
initiated a review. On December 30, Tony Thompson sent to our office a memorandum titled
"Space Acquisition and Utilization Plan."38 This memorandum provided CFTC Management's
reasons for (1) initially entering into the lease for expanded space in Kansas City, (2) retaining
the excess space in Kansas City over the last three years, and (3) not opening an office West of
Kansas City, specifically in Los Angeles.

The December 30 Memorandum addressed topics that go beyond the scope of this review. Our
focus remains on the current excess space in Kansas City. However, CFTC Management's
discussion of the three points listed above are to some extent intertwined; consequently, we will
to the extent necessary address all three topics.

We note that the December 30 Memorandum contains a number of assumptions that we do not
share. It bases its calculations, conclusions and recommendations on these assumptions, limiting
its value for purposes of this review. Nevertheless, this memorandum was apparently CFTC
Management's only official work-product that addressed these issues at the time; accordingly,
we have chosen to focus on it by addressing the points that we can. Where CFTC Management's
assumptions differ enough so as to prevent reasonable analysis, we simply note the fact and
move on.


CFTC Management States That Its Leases Are Justified By Its Requests For Higher
Budgets

CFTC Management explains that in every year since 2008, it has requested progressively higher
budgets, which correspond to progressively higher requests for staff. 39 For instance, in Januafl
2010, there were "planned increases to 799 staff by January 2011, and 982 in January 2012."4
36
  We thank CFTC Management for pointing out an error. We had written that there were 15 storage and filing
rooms, when in fact there are 15 rooms labeled as "non-occupiable" which include storage, filing, and other rooms.
37
  Tony Thompson became Executive Director in July of2011, replacing Madge Bolinger-Gazzola. The leasing
process in Kansas City was complete prior to Tony Thompson's arrival.
38
 Memorandum from Tony Thompson, Executive Director, to Roy Lavik, Inspector General, entitled "Space
Acquisition and Utilization Plan" (with attachments), dated December 30, 2013 (the "December 30 Memorandum").
We have attached this memorandum as Appendix 1.
39
     Appendix 1, at page 3-4.
40
     /d. at 4.



                                                        6

U.S. Commodity Futures Trading Commission                                                              REDACTED
Office of the Inspector General                                                                          byCFTC

CFTC Management then notes that its budget requests increased still further: "FY20 13 and FY
2014 President's Budgets requested 1,015 staff," including 73 in Kansas City, and that this total
did not include between 400-450 contractors.41 CFTC Management concludes that "when
estimated FTEs and contractors are considered, this creates a [nationwide] deficit of about 116
seats," and that the "CFTC would not be able to house this level of staff and contractors with
current leased space. ,,42

CFTC Management's justification is unchanged since the CFTC's initial expansion in 2009, and
we do not understand the continued focus on comparing hypothetical staffing levels to actual
expenditures on real empty offices. 43 We agree that if the CFTC's budget increased, more staff
would be hired, and that there would be fewer empty offices. But we do not agree that a
hypothetical budget increase justifies current, actual expenditures on empty offices, or that years
of progressively higher hypothetical budgets justify years of actual expenditures on empty
offices.


CFTC Management States That There Are No Circumstances Under Which The
CFTC Would Benefit From Subleasing Or Returning Space To The Landlord

The December 30 Memorandum states that CFTC Management considered subleasing as well as
a return of space to the landlord. It alleges that these would not be cost effective, and that they
would not result in financial or other benefits to the CFTC. 44 The memorandum provides
support for these arguments in an attachment titled "Considerations Associated with Sub-Leasing
Kansas City Office Space."45


The CFTC Could Not Keep The Proceeds From A Sublease

CFTC Management's first consideration is that " ...proceeds from the sub-lease likely cannot be
used by CFTC to offset its rental obligations, but instead will need to be deposited with Treasury
as a miscellaneous receipt.'rt 6 It goes on to say that "[this] could offset any benefits to the
Commission associated with subleasing the space."47 In an interview, we asked for clarification

41
     ld. at 5. The contractors were anticipated "mostly in support of information technology."
42/d.
43
  ldat 3-5. CFTC Management does not address actual staffing levels over the last three years, the number of
vacant offices, or the expense of those empty offices in its justification for maintaining its current leases. We are
uncertain why.
44
     ld. at 2.
45
     ld. at 12.
46/d.
47
  Jd. CFTC Management reiterates this point in its response to our Review. (See Appendix 2, page 3.) We believe
that CFTC Management should attempt to save taxpayer dollars regardless of whether the resulting savings are
deposited to the General Treasury.



                                                            7

U.S. Commodity Futures Trading Commission                                                            REDACTED
Office of the Inspector General                                                                        byCFTC

whether it was arguing that saving taxpayer dollars was not worthwhile in situations where the
money reverted to Treasury. CFTC Management emphasized that this was not its purpose, and
that the return of funds to Treasury was simply a fact to be considered. It agreed that savings
should be sought regardless of whether the CFTC or another part of government received the
money.
The CFTC's Up-Front Costs To Sublease Would Be $1.3 Million

CFTC Management's remaining considerations regard the up-front costs that it estimates a
sublease would incur. 48 CFTC Management calculated an up-front cost of$1.3 million by
assuming that it would sublease the entire Kansas City office, leaving no space in Kansas City
for its staff. 49 We do not understand this assumption 50 - or others. 5 1 Since this analysis is
predicated on fundamental assumptions that we do not share, we decline to further address the
methodology by which CFTC Management calculated this number. We note, however, that at
the current level of utilization - 32% - the cost of vacant offices in Kansas City over the term of
the lease will be an estimated 3.6 million. Consequently, even an up-front cost of 1.3 million
would result in a sublease that would achieve substantial savings; and under more reasonable
assumptions, 52 we believe the true cost would be only a fraction of that figure.

It Would Not Be Cost Effective To Return Space To The Landlord

The CFTC states that "based on prevailing markets and the anticipated costs, staff does not
expect that [a return of space] would be cost effective."53 We are puzzled by this conclusion,
since as recently as November of 2013, CFTC Management negotiated a return of its option for
approximately 16,000 SF to the landlord in exchange for a three-month rental abatement valued
at approximately $130,000. 54

48
     Appendix I, page 12.
49
  /d. CFTC Management estimates $570,000 in costs as an estimate for "12 months of vacancy prior to collecting
the sublease rent." $570,000 is the lease cost for one year for the entire office. Similarly, CFTC Management
discusses the increased costs of subletting the space given that the average leasehold in Kansas City is much smaller
than the CFTC's 24,000 SF. Accordingly, we concluded that the calculation of$1.3 million was reached by
assuming the abandonment of the Kansas City office.
50
   Most of the assumptions with which we disagree flow from the initial erroneous assumption that the CFTC would
abandon the Kansas City office. For instance, CFTC Management estimates a "tenant improvement allowance" and
a commission to a realtor based on the total lease size of24,000 SF. CFTC Management also assumes a cost for
"down-time" during which the CFTC would pay rent but be unable to collect proceeds from a sublease. We believe
this cost should be offset by the current cost of unoccupied space; in other words, CFTC Management should only
count the 32% of the space that is being utilized when estimating the cost of downtime for the overall space.
51
   CFTC Management comments that security concerns would have to be taken into account if we were to rent a half
floor. This assertion puzzles us. The CFTC already rents a half floor. Ifthe CFTC gives up the full floor, it would
be left with the half floor that it already has, and we do not understand why new security concerns would arise.
52
  For instance, the CFTC could sublease either the half floor or full floor. As a result, the commission and tenant
improvement allowance would be substantially lower.
53
     Appendix I, page 2.
54
     Below, we further discuss the return of the option. See infra, p 11, n.67-69.



                                                             8

U.S. Commodity Futures Trading Commission                                                            REDACTED
Office of the Inspector General                                                                        byCFTC


CFTC Management supports its conclusion that a return of space would not be cost effective
with another reference to its "Considerations Associated with Sub-Leasing Kansas City Office
Space." However, the stated considerations do not appear to consider the costs of returning
space to the landlord. 55 In an interview, CFTC Management stated that it focused on the costs of
subleasing, and not on the option of returning space to the landlord.

CFTC Management supplemented its December 30 Memorandum with a second memorandum
dated January 17,2014, which analyses the commercial real estate market in Kansas City. The
January 17 Memorandum states that "the likely sublease rent would be in the range of$22.00­
$22.50 [/SF]."56 On March 12,2014, Tonl Thompson responded by email to some questions
that had been raised during an interview. 5 Among them, he explained that the leasing market in
Kansas City "had not improved." He went on to say that the CFTC was currently paying
                                                                  58
$22/SF, and that rates for a potential sublease were $20·$22.5/SF. The fact that the Kansas
City commercial real estate market had not improved was also raised during the interview; CFTC
Management reasoned that the lack of improvement meant that a return of space to the landlord
would not be cost effective.

We believe that CFTC Management should reconsider its stance. Since the CFTC is currently
paying to lease vacant offices, any rental abatement would be cost effective. However, the
market price is apparently equivalent to the price the CFTC currently pays for its empty office
space- approximately $22/SF. Accordingly, a negotiated return of space to the landlord would
appear to be possible that fully realizes the costs of that unused space- estimated to be some 3.6
million over the 10-year life of the lease. At worst, one would expect any landlord to strongly
consider an offer to return space in exchange for a rental abatement below the market price- at,
for instance, $19/SF. 59 And a negotiated return of approximately 16,000 SF, valued at $19/SF,
for the approximately seven years remaining on the lease, would net the CFTC savings of
$2,128,000 over that period- minus any up-front costs. 60

55
  CFTC Management does discuss the concept of a "termination for convenience clause" in a lease. Appendix I,
page 12. It concludes that the CFTC's lease does not contain such a clause, and that such clauses are inappropriate
for the lease of real property. However, CFTC Management does not address cost effectiveness, and in any event
the lack of a termination for convenience clause does not prevent a negotiated return of space to a landlord.
56
     CFTC Management Supplemental Memorandum, dated January 17, 2014, ("January 17 Memorandum") at 5.
57
     Email from Tony Thompson, dated March 12,2014.
58
  Id The estimate of$20-22.5/SF on March 12 differs from the original $22-22.5/SF provided on January 17, but
the difference is immaterial for purposes of this review.
59
   This discounts up-front costs. But up-front costs are a small percentage ofthe total lease value. For instance,
when the CFTC initially negotiated the Kansas City lease, the up-front costs were only a fraction of the cost of the
lease itself over ten years. Furthermore, returning space to the landlord would likely result in markedly lower up­
front costs than a sublease, because it would not include negotiations with a third party.
°
6
  CFTC Management states that "OIG offers no facts or logic to support [its] conclusion" that the landlord would be
expected to consider an offer for a return of space in exchange for a below-market rental abatement. We find this
assertion puzzling, since a hypothetical demands no facts by definition, and the logic is straightforward. In very
brief, let us suppose the CFTC offers to return the space in exchange for a $19/SF rental abatement. Since the
current market rate is, according to the CFTC, $22.00-$22.50/SF, then the landlord is incentivized by potential


                                                          9

U.S. Commodity Futures Trading Commission                                                              REDACTED
Office of the Inspector General                                                                          byCFTC



CFTC Management States That It Is Inadvisable To Open An Office On The West
Coast

Though not the focus of this review, CFTC Management asserts in its memorandum that opening
a West Coast office would be prohibitively expensive. This appears to be a response to our
Office's repeated recommendations in our semi-annual reports to Congress that the CFTC reopen
an office on the West Coast. 61 A large portion of the United States lies West of Kansas City,
substantial futures trading occurs West of Kansas City, and we have reasoned that the CFTC,
                                                                                    62
like other financial regulatory agencies, should accordingly have a presence there.

The December 30 Memorandum and a supplemental spreadsheet emailed to our office on
January 9, 2014, examine the prospect of reestablishing an office in Los Angeles. CFTC
Management concludes therein that reestablishing an office in Los Angeles would cost
                                                                                                63
approximately $20,000,000 more than the current Kansas City office over a period of 5 years.
However, like CFTC Management's calculations with respect to subleasing, this figure appears
to be the product of a series of unusual assumptions. Once again, the supplemental spreadsheet
assumes the closure of the entire Kansas City office, and adds assumptions to ( 1) pay full-value
for the remaining seven years of the lease,64 (2) pay to relocate all25 employees permanently to
Los Angeles, and (3) once there, pay to construct and lease enough office space for 78
employees, even though the present need is for only 25.65

We have never recommended closing the Kansas City office. We have never recommended
requiring Kansas City staff to relocate to Los Angeles. Rather, we have consistently
recommended appropriately-sized offices in Kansas City and the West Coast. In the same vein,
we also do not recommend entering into a lease in Los Angeles for 300% more space than the



profits of$3.00-$3.50/SF (for each of the remaining seven years of the lease) to search for a new tenant willing to
pay the current market rate. Meanwhile, as explained above, the CFTC realizes savings of approximately
$2,128,000 over the same period (minus any upfront costs). Indeed, we would be astonished if any two parties
could not mutually benefit by renegotiating a lease in which one party pays millions of dollars for vacant offices.
61
     We first recommended this action in our September 2006 Semi-Annual Report to Congress.
62
  CFTC Management comments that it "has analyzed relevant data a number of times to determine the most
effective site for a western regional office (cost and productivity). Kansas City was the best choice." Appendix 2,
page 16. We can only reiterate our view that Kansas City, Missouri, is not in the "West," and has not been since the
mid-1800s. Compare "Census Regions and Divisions of the United States," U.S. Census Bureau map, available at:
http://www.census.gov/geo/maps-data/maps/pdfs/reference/us regdiv.pdf, with "Admission of States and Territorial
Acquisition," U.S. Census Bureau map, available at: http://www.lib.utexas.edu/maps/united states/territory.jpg. See
Appendix 3.
63
  CFTC Management's Supplemental Spreadsheet "Study- Kansas City to Los Angeles Costs" produced to OIG
via email dated January 9, 2014.
64
     We note that the CFTC paid a penalty of only one year's rent when exiting its prior lease in Kansas City in 2011.
65
     This assumption was particularly puzzling, given our concerns about underutilized office space.



                                                           10 

U.S. Commodity Futures Trading Commission                                                               REDACTED
Office of the Inspector General                                                                           byCFTC
                                                                                                                 66
CFTC presently has the staff to fill. There are additional assumptions that we do not share, but
the assumptions listed above limit the usefulness of further analysis. Accordingly, we decline to
further examine the methodology by which CFTC Management reached its figure of
$20,000,000.


The CFTC's Recent Actions With Respect To The Kansas City Lease

In November 2013, the CFTC sold its option for 16,000 SF back to the landlord. 67 In exchange,
the landlord agreed to three months of immediate rental abatement, valued at approximately
$130,000. However, according to our interviews, this decision was not made as the start of an
effort to reduce the size ofCFTC's lease or the CFTC's lease costs on empty office space.
Rather, it was initiated during the se~uester as an attempt to eliminate some of the Agency-wide
budget constraints faced at that time. 8 But regardless of the CFTC Management's intent,69 the
effect was to reduce the cost of the lease. 70

We view this as evidence that the landlord places substantial value on the space and is willing to
negotiate with respect to returns of space. It also demonstrates to our satisfaction that the CFTC
has the ability to reduce its space in a manner that CFTC Management views both as legal and
not requiring proceeds to be turned over to Treasury. 71

66
  All of the additional assumptions have the effect of raising the estimated costs or lowing the estimated benefits of
establishing an office in Los Angeles. For some, we simply do not understand the basis for the assumption, such as
CFTC Management's estimate of$2,500,000 for "construction" costs; however, it was beyond the scope of this
report to search for independent estimates.
When the basis for an assumption was clear, we often did not share the assumption. For instance, CFTC
Management assumed the CFTC would receive all of its requested funding in 2014, enabling it to increase staffto
full occupancy. This would raise costs because federal employees in Los Angeles are paid more than in Kansas
City. We did not share this assumption when it was made, and the CFTC did not in fact receive its requested
funding for 2014. In another example, CFTC Management calculated travel savings only with respect to Kansas
City staff. That is, it compared the prices of flights actually taken by Kansas City staff with the price of a
hypothetical flight from L.A. to the same destination. This assumption appears faulty for two reasons. First, it
excludes travel savings from the other 95% of CFTC staff who do not work out of the Kansas City office, who may
no longer need to fly to the West Coast. Second, it assumes that staff in L.A. would continue to handle cases in the
regions previously handled by staff in Kansas City. We believe a more reasonable assumption would be for the
Chicago Regional Office to handle cases in the middle of the country in the unlikely - and not recommended - event
that the CFTC closes the Kansas City office.
67
     The option's value was included in the price of the overall lease; the CFTC was not paying for it separately.
68
 The three months of rental abatement occurred in November, December, and January, effectively lowering the
CFTC's leasing costs during the remainder of the sequester.
69
  CFTC Management states that this is incorrect, and that it did not initiate the sale of the option to save taxpayer
dollars. Rather, the landlord initiated the transaction and the savings were merely a "side-effect." See Appendix 2,
page 10.
70
     We note that the CFTC appears to retain its right of first refusal on approximately 7500 additional SF.
71
  See Matter of: Securities and Exchange Commission - Reduction of Obligation of Appropriated Funds Due to a
Sublease, B-265727, 1996 U.S. Comp. Gen. LEXIS 374, *6 (July 19, 1996) ("An exception to the general rule
against augmenting an agency's appropriation includes receipts that qualifY as refunds to an appropriation. Refunds


                                                            11 

U.S. Commodity Futures Trading Commission                                                             REDACTED
Office of the Inspector General                                                                         byCFTC


In any event, the documents prepared by CFTC Management during our fieldwork for this
review appear to be its first attempt to examine the issue of underutilized office space in Kansas
City. 72 Though CFTC Management makes some assumptions that we do not understand or
share, we view CFTC Management's willingness to engage on the issue a positive sign.

For instance, on March 12, 2014, two days after an interview with Tony Thompson and other
senior management personnel, the Executive Director responded to some of the questions that
had been raised therein. In pertinent part:

           Q 4: You requested CFTC investigate options to reduce its square footage in its
           Kansas City office- specifically, the ability to sublease or return space to the
           building owner.

           A 4: We have previously provided material to you on this subject regarding the
           expected cost effectiveness of both options. A more in-depth review of this
           matter will require several critical steps to fully address your inquiry. In the very
           near term, I will request that OGC officially review and provide an opinion on
           CFTC's legal ability to sublease or, return to the building owner part of our leased
           space in Kansas City. This review will hopefully determine within the confines of
           the current lease and applicable appropriation law and other federal regulations,
           our ability to pursue these options.

           Next, based on a favorable OGC review supporting the feasibility of pursuing
           one, or both of these options, I would, with the Chairman and subsequent
           Commission level concurrence, direct OED staff to engage with the current
           property owner of the CFTC leased space in Kansas City. The goal would be to
           ascertain interest, and more importantly attempt to gain the Lessor's agreement
           and ability to execute a revised lease arrangement that would allow us to
           relinquish the unused space in question in a manner advantageous to the CFTC. 73

We believe these were the most positive steps to date showing that CFTC Management would be
taking a serious look at the under-occupancy in Kansas City, and we were pleased with the
efforts in this regard. Unfortunately, the May 14, 2014, response to our discussion draft did not
expand on the language quoted above, and focused instead on impediments to eliminating the
excess space. However, we were recently informed that CFTC Management has inquired with
the Kansas City landlord regarding a possible return of space. We believe this shows that CFTC
Management is now more focused on this issue, and in a way we consider favorable.

may be retained to the credit of the appropriation and are not required to be deposited into the general fund of the
Treasury") (http://www.gao.gov/assets/330/326345.pdf).
72
  CFTC Management did briefly consider limiting new hires to Kansas City, which may have helped to fix the
problem of underutilization. However, general budgetary limitations and events like the sequester apparently
distracted or otherwise prevented pursuit of this goal.
73
     Email from Tony Thompson to OIG in response to questions during an interview, dated March 12, 2014.



                                                          12 

U.S. Commodity Futures Trading Commission                                            REDACTED
Office of the Inspector General                                                        byCFTC


                                         Conclusion 

In September of 2010, the CFTC signed a new lease in Kansas City for approximately 24,000 SF
with options/rights of first refusal for an additional 24,000 SF. At present, it has 25 staff in a
space sufficient for 78. CFTC Management justified entry into the lease with its expectation of
increased funding and increased staff necessary to implement the Dodd-Frank Act. Over the last
three years, the extra space has remained, while the extra funding has remained hypothetical.
Even if the initial decision to expand were justifiable- prior to receipt of the funding necessary
to fill the additional space - at some point, management must reassess the situation in light of
current budget realities.

We believe that the CFTC should strive to lease only the space that it has the current budget and
staff to fill. Future appropriations cannot be predicted with certainty. It may be that immediately
after downsizing, the CFTC will receive an appropriation sufficient to completely fill the space
that it no longer has. This would not change our reasoning; we believe that the CFTC and public
are better served by the risk of a temporary shortage of space, than a 100% certainty of spending
substantial taxpayer dollars on the lease of vacant offices.

                                    Recommendations
We recommend that the CFTC take immediate steps to dispose of underutilized property in
Kansas City. We also recommend that the CFTC initiate a review ofunderutilized space in the
other regional offices and at headquarters to determine if similar actions are warranted. We
leave it to CFTC Management to determine the most expedient method to carry out the
recommendations.




                                                13 

U.S. Commodity Futures Trading Commission                          REDACTED 

Office ofthe Inspector General                                       byCFTC 





                                 APPENDIX!

                   CFTC Space Acquisition and Utilization Plan 

                                 December 30,2013 

U.S. Commodity Futures Trading Commission                                                                   REDACTED
Office of the Inspector General                                                                               byCFTC


                          U.S. COMMODITY FlJTURES TRADING COMMISSION 

                                                 Three Lafayette Centre 

                                      1155 21st Street. NW, Washington, DC 20581 

                                              Telephone: (202) 418-5160 

                                               Facsimile: (202) 418-5541 

                                                      www.cllc.gov




                                               MEMORANDUM




               FROM:           Anthony C. Thompson, Executive Director
               DATE:           December 30, 2013
               SUBJECI':       CFTC Space Acquisition and Utilization Plan


         Mr. Lavik, over the past few years several questions have been raised concerning the CFfC
         leases and office locations. CFTC bas responded to those questions as they arose. Here I want
         to provide you with a comprehensive look as to why the Commission made certain decisions and
         recent actions and assumptions. Therefore, as promised, attached is a synopsis report
         (Attachment 1) on the CFTC leases and space utilization. I also understand that you are
         preparing a report on CFTC leasing and space. I would appreciate the opportunity to review that
         report and offer comment before it is finalized.
         This Report addresses the recent CFTC mission expansion and the related budget and staffing
         environment in which the CFTC bas been operating. Existing and near-term internal and
         external factors necessitated CFTC make a number ofleasing decisions over the~ 4 years. As
         you recognized in the "Inspector General's Assessment ofThe Most Serious Management
         Challenges Facing the Commodity Futures Trading Commission" in the FY2010 Perfonnance
         and Accountability report, the implementation ofthe Dodd-Frank Act and the related Human
         Resource expansion and management issues posed significant challenges (see Attachment 2).
         CFTC management has made every effort to anticipate and address these challenges in a
         proactive and efficient manner.

         In order to best present this infonnation to you, I asked staff to prepare the attached Report to
         collectively look at leasing actions taken over the past 4 - S years, the rationale for those actions,
         and our assumptions going forward.
         The following Report shows that:




                                                                                                   Appendix 1, page 1
U.S. Commodity Futures Trading Commission                                                                  REDACTED 

Office of the Inspector General                                                                              byCFTC 





              • 	 Pre Dodd-Fnmk Act workload was such that on-board staff exceeded the available Space •
                  under lease;
              • 	 CFTC leases were expiring between 2012 and 2015 for DC headquarters, New York
                  City, Chicago, and Kansas City;
              • 	 During the time we expanded our leased space there were very :fiworable leasing rates
                  and terms in all CFTC office locations;
              • 	 The Dodd-Frank Act (July 2010) created workload that far exceeded the capacity of
                  existing staff and. for the past 3 years, the President's Budget has requested Federal staff
                  ofaround 1,000 and approximately 300 contractors for the CFTC and increased reliance
                  on automation has further increased the number of IT contraetors (see Attachment 3);
              • 	 To ensure transparency with OMB and Congress, the FY2009 and FY2010 CFTC Spend
                  Plans reflected plans for expanding leased space; and
              • 	 lfCFTC receives the requested amo1Dlt in the FY2014 President's Budget there will be
                  no excess space.
         AdditionaJly, we recently looked at the possibility ofreestablishing a west coast (Los Angeles)
         office and found that lease and staff costs would be far more expensive than in Kansas City, with
         very little offsetting savings (travel) and no direct benefits to justify that change (internal staff
         study).

         OBD staff considered temporarily subleasing currently under-utilized space, and found that there
         are serious appropriations law and other concerns with this strategy and found no circumstances
         under which CFTC would reap financial or other benefits. Staff also considered the ability to
         negotiate a return of space to the landlord in the event oflong-term excess capacity. Based on
         prevailing markets and the anticipated costs staff does not expect this would be cost effective.
         (See Attachment 4)

         Based on these factors, I strongly believe that the CFTC has made reasoned, cost effective, and
         well justified leasing decisions. I also strongly believe that the current leasing/space situation is
         appropriate for CFTC looking forward- at least in the near-term. If it appears the CFTC wiD not
         achieve the anticipated staff levels in the near future, we will reconsider all options.




         cc:: 	   Mark Wetjen, Commissioner
                  Eric Juzena.s. COO
                  Jonathan Marcus, General Counsel



         Attachments



                                                                                                                 2




                                                                                                   Appendix 1, page 2
U.S. Commodity Futures Trading Commission                                                                 REDACTED 

Office of the Inspector General                                                                             byCFTC 





                                                                                               Attachment 1
                                                     Report On

                         CFI'C Staflillg and Leasiag Facts, Assumptions, and Strategy

         OVERVIEW

         Over the past few years the Commodity Futures Trading Commission (CFTC) has made a
         number ofmanagement decisions related to space requirements, including the implementation of
         the Dodd-Fnmk Act. Given the growing requirements associated with pre-Dodd-Frank
         workload, and the scope of new Dodd-Frank Act responsibilities, management hired and
         prepared to hire additional staff. To accommodate these staff CFTC needed to provide adequate
         resomees, including office space, for them to work effectively. CFTC reworked its leases in
         Washington DC, Chicago, Kansas City, and New York to expand the size ofits space, extend the
         terms ofthe leases, and renegotiate pricing in its favor in order to accommodate actual and
         anticipated staff increases. Additionally, CFTC sought to leverage its space configuration to
         enhance its operational capabilities (e.g. market watch rooms, productivi1y and technology hub,
         hearing room with webcasting capability, and video conferencing). The remainder of this report
         provides additional background and a detailed explanation of the leased space related decisions.

         BACKGROUND

         The CFTC was established as an independent agency by the Commodity Futures Trading Act of
         1974. The CFTC mission consisted ofCommodity Exchange Authori1y (CEA) responsibilities,
         previously housed in the Department ofAgriculture, and additional jurisdictional responsi'bilities
         provided through the Commodity Futures Trading Commission Act.

         Initial CFTC staffing consisted of240 CEA employees and a few additional recruits. The
         transferred CEA staff was located in Department ofAgriculture space in the District of
         Columbia, New York City, Chicago, Kansas City, Minneapolis, and Los Angeles. These
         locations wae maintained and permanent separate space was achieved by 1976. The Los
         Angeles Office was closed in 2003 to improve the effectiveness ofthe Division ofEnforcement
         and the Division ofClearing and Intermediary Oversight through the increased use of cross­
         functional teams and by co-locating larger numbers of staff. The Minneapolis Office was closed
         in 2006 due to high cost and a lack of staff effectiveness as it only had two staff for the prior 10
         years and one of the staff retired.

         CFTC staff grew to 560 in 1998 and fell over time to 448 in 2008. Owing this same period.
         contract trading volume grew from 625 million to 3.446 trillion- more than a 5-fold increase.
         Based on the burgeoning worldoad, the FY 2009 appropriation provided for 572 staff- a
         sizeable increase over prior years.

         In May 2009, CFTC submitted a FY2010 President's Budget based on the appropriation
         providing for 572 staff. In this Budget, CFTC requested 38 additional staff, including 3 auditors
         - 1 each for New York City, Chicago, and Kansas City. This overall increase in staff was



                                                                                                                1




                                                                                                 Appendix 1, page 3
U.S. Commodity Futures Trading Commission                                                                  REDACTED 

Office of the Inspector General                                                                              byCFTC 





         requested due to many factors including: industry growth, growth in traded futures and option
         contracts, increase in number of registran~ and increase in derivative clearing organizations.

         In addition_ in July 2009, a year before Dodd-Frank Wall Street Reform and Customer Protection
         Act of2010 (Dodd-Frank Act), the Commission developed a long-term Program of
         Requirements (POR) for staff and space to meet its regulatory mission. The driving forces
         behind this POR were the recent staff gains resulting in very tight space problems and that most
         leases were terminating in the near-term (District of Columbia- 2015; Kansas City- 2014;
         Chicago- 2012; and New York 2012). A POR considers all space regardless oflease expiration
         date and it is a reasonable practice to begin leasing activities 2 years prior to expiration. A side
         benefit were slow leasing markets in the regional cities, enabling the CFTC to have a prime
         opportunity to expand its space and meet its projected need at much lower leasing rates.

         The Program of Requirements projected space requirements as follows:

            •   District ofColumbia- 226 additional seats
            •   Chicago -79 additional seats
            •   New York City- 6 additional seats
            •   Kansas City- 35 additional seats

         The final "Work Space" requirements reflected a growth from 652 to 942 seats. This is based on
         746 staff, and while this addressed needed growth in staff, it did not include estimates for
         contractor growth.

         It should be noted that CFTC inc~uded details of its expansion plans in its FY2009 and FY2010
         Spend Plans, which were submitted to both OMB and Congress.

         DODD-FRANK ACf EXPANSION .

         In February 2010, the FY2011 President's Budget requested 864 FTB, which was 214 FTE
         above the projected FY2010 usage. The request included an increase of95 FTB for existing
         authorities and 119 FTB for proposed new authorities related to financial regulatory reform. Part
         ofthe increase was tenned a "strategic plan to double the number ofEnforcement staff in the
         Kansas City Office."

         In anticipation ofpassage of the Dodd-Frank Act, detailed staffing and space plans were
         developed to enable CFTC to complete its mission. On-board staff was 588 in January 2010
         with planned increases to 799 by January 2011 and 982 in January 2012. On-site contractor
         staff, mostly IT professionals, was to concomitandy increase from 138 to 248. Detailed
         renovation plans and leasing requirements were also laid out Regional Office increases in staff
         were to be: Chicago- from 106 to 162; New York City- from 75 to 106; and Kansas City­
         from 22 to SO. These numbers do not reflect contractors. (See attached Spreadsheets)

         Passage of the Dodd-Frank Act increased the CFI'C's span ofauthority many fold as it
         integrated 1he $400T swaps market into its arena of responsibility. After careful review of the
         enacted law, it became clear that the Dodd-Frank Act added responsibilities far greater than
         originally anticipated.


                                                                                                                2




                                                                                                 Appendix 1, page 4
U.S. Commodity Futures Trading Co mmi ss ion                                                                           REDACTE D
0 ffice of the In spector General                                                                                        by CFTC




          In the first budget writte n a fter passage o f the Dodd-frank Act, the FY2 012 Pres id ent's Budget
          reques ted 983 FTE, which was I 19 FT E abo ve the FY20 II request. With fu rther proj ected
          reliance on auto mation to meet the workl oad demand s, it is currently es tim ated that there would
          be 400 to 450 contrac to rs. ag ain mos tly in s uppo rt o f info m1atio n tec hn ology. The C FTC would
          no t be able to house this level of sta ff and co ntracto rs with curre nt leased s pace .

          Both the FY201 3 and FY2014 President' s Budgets reques ted 1,015 stafTbased on mi ssion
          requirements. At this sta f!in g level, on-go ing di sc ussions with the Di visions and Offices indicate
          the followin g headquarte rs and regi o nal di s tributi o ns wo uld occur:

                                                    FY14
                                                  PB FTEs          DC         CH         KC          NY
           Market Oversight                                177       107           27          7          36
           Enforcement                                     215       112           34         26          43
           General Cou nsel                                 69        68            1          0           0
           Clearing and Risk                               115        41           43         24           7
           Swap Dealer & Inter mediary
           Oversight                                     154            77         23         13          41
           Data & Technology                             122         97            14         2            9
           Chief Economist                                25         25             0         0            0
           International Affair s                         17         17             0         0            0
           Inspector General                               6          5             1         0           0
           Agency Direct ion                              29         29            0          0           0
           Execut ive Director                            86         79           3            1         3
             Total                                      1015        657         146           73       139


          When es tim ated FTEs and con trac to rs arc considered, this crea tes a d e ficit of about 116 seats.
          Thi s da ta come s from the charts and analysis o f the F Y20 14 budget request, auto matio n
          require ments, and CFTC ' s avail ab le seating ca pa city co ntained o n th e fo llowing page.

          It is a lso impo rtant to note that Cf-TC ' s leases re fl ect the requ es ted startin g requirements that
          were su pported and reprod uced in the FY 20 13 and r:Y20 14 Pres ident' s Budgets to Co ngress .

          CONCLUSION

          Based o n thi s Report, C FTC strongly be lieves that the leasin g d ec isions we re we ll reasoned , co st
          effecti ve, and jus tifi ed.




                                                                                                                             3




                                                                                                               A ppe ndi x 1, page 5
U .S. Co mm odity Futures T rading Commi ss ion                                                                                                RE DACTED 

Office of the In specto r Gene ral                                                                                                                by CFTC 





                                  Fiscal Year 2014 CFTC Real Es ta te Estim a te

                                                        Rent able
                                         L ease                           Seats            Rent and                                    FY14
            Lo catio n                                   Square                  1                  2            Utilities                     2
                                       Exp i ration                     Occupied          Operating                                  Estimated
                                                        Footage


                                                                                                                I ncl uded in
            W ashi ngton . DC            9130125          288.395                667     $ 15.037.7 79              Rent               $ 15.037 .779

                                                                                                                Included in
            Kansas Citv. MO              3131/2 1           24.362                 24         $560 .591            Rent                    $560,591

            Chicago, IL                  6130122            60.412               142       $2,245,702                $30.375             $2,276.077

                                                                                                                Included in
            New York. NY                 4130122            61 .51 0               89      $2.232,820              Rent                 $2,232 ,820

                                                          434,679                922     $20.076 ,892                $30,375           $20 ,107, 267
            1
                As of November 14,201 3 


            ~ May adjust i n FY2014 based on local taxing authority and operating billings. 


                                                            Seats
                                                                                     FY14
                                        Total                                      Program
                                                      Occupied     Available                              Net
                                                                                    Budget
                                                                                   ReC!uest
            DC                              966           667            299      1,082               -116 ••
            KCRO                             78            24             54         78                  0
            CHRO                            173           142             31       173                   0
            NYRO                            135            89             46       135                   Q
             Totals                       1,352           922            430      1.46 8 .             -116
            Thos 1.468 represents 1.0 15 FTEs. 388 1T contractors, and 65 non-IT contractors.
           ''This (-1 16) means we are 116 seats shon of fu ll operational status at the FY1 4 President's Budget. These needed seats
           represent contractors. and almost all are IT contractors. Some or all of these can be housed off-site but that will raise lheir hourly
           rate over providing in-house space and may affect effectiveness.


           Cf-TC's c urrent po rtfolio of rea l eslate includes fo ur co mm ereial leased locatio ns. T he CFTC
           has authori ty to en ter into leases independently based on C EA section 12(b)(3) and language in
           CFTC appropriation acts since FY 198 1 authorizing expenditures lo r " the renta l of space (to
           include multiple year leases) . ..., T he CFTC a lso negotiates a Tenant Improvement A llowance
           (TIA) fro m its landlords. These allowances are used to cover the costs of space re novatio ns o r
           rent abatement.

           All currently ava ilable space will be fu lly occupied if the CFTC receives its FY201 4 Presiden t's
           Budget request. The estimates for taxes are constantly changing d ue to va rio us local taxin g
           auth orities; as well as the necessa ry uti lities that may be used in a specific locatio n.




                                                                                                                                                       4




                                                                                                                                    App end ix I , page 6
U.S. Commod ity Futures Trading Commi ssion                                                                      REDACTED 

Office of the In spector General                                                                                   by CFTC 


                                                                                                            Attachment 2




                              U.S. COMMODITY FUTURES TRADI NG COMMISSION 

                                                    Three Lafayette Centre 

                                         1155 21st Street, NW, Washing ton, DC 20581 

                                                 Telephone: {202) 418·51 10
                                                  Facsimile: {202) 418·5522



         Office of the
      Inspector General

                                                 MEMORANDUM


           TO: 	           Gary Gensler 

                           Chaim1an                       0

           FROM: 	         A. Roy Lavik     0 Rd-

                           Jnspector General 


            DATE: 	        November I 0, 20 II

           SUBJECT: 	       Inspector General's Assess ment of The Most Serious Management
                            Challenges facing the Commodity futures Trading Commission (CFTC)

           Introduction

          The Reports Consolidati on Act of2000 (RCA) authorizes the CFTC to provide financial and
          performance infonnation in a more meaningful and useful fom1at for Congress, the President,
          and the public. The RCA requires the Inspector General to s ummarize the " most serious"
          management and performance challenges fac ing the Agency and to assess the Agency's progress
          in add ressing those challenges. This memorandum ful fi lls our duties under the RCA.

          In order to identify and describe the most serious man agement challenges, as well as the
          Agency's progress in addressing th em, we have relied on data contained in th e CITC financial
          statement audit and Annual financial Report, representations by agency management, as well as
          our knowledge of industry trends and CITC operations. Since Congress left the determin ation
          and threshold of what constitutes a most serious challenge to the discretion of the Inspecto r
          General, >vve applied the following defini tion in preparing this statement:

          Serious management challenges arc mi ssion critical areas or prog rams th at have th e potential for
          a perennial weakness or v ulnerability that, without substantial management attention, would
          seriously impac t Agency operations or strategic goals.

          This memorandum s ummarizes the results of the CfTC's current financial s tatement audit.
          desc ribes the Agency's progress on last year's management challenges, and finally discuss.es the
          most serious management challenges th at we have identified:

              •    Implemen tation of the Dodd-frank Act

              •    Human Resource Expansion and Management




                                                                                                     Appendix 1, page 7
U.S. Commodity Futures Trading Commission                                                                   REDACTED 

Office of the Inspector General                                                                               byCFTC 





            e   Efficient Deployment ofInformation Technology Resources

            o   Expanding Deli~ ofCustomer Protection Resources and Consumer Education


         CFI'C J.i'iDanclal Statement Audit Results

         In accordance with theA.ccountablllty ofTta Dollars .Act, CFTC, along with numerous other
         federal entities, is required to submit to an annual independent financial statement audit by the
         Inspector General, or by an independent external auditor as determined by the Inspector GeneraL
         The results ofthe FJSC81 Year 2011 financial statement audit will be discussed in the Annual
         Financial Report, and the financial statement audit is expected to result in an unqualified audit
         opinion.

         CVfC's Progress oa Last Year's Challenges

         Last year, we identified two ofthe most serious management challenges:

            o   Implementation of the Dodd-Frank Act; and,

            • Human Resource Expansion and Management.

         CFfC made progress on both cballenges, but due to ongoing implementation of the Dodd-Frank
         Act these challenges remain significant. Following is our statement made last year followed by
         an update.

         OIG Stqtemenl 2010

         Implementation ofthe Dodd-:Fnmk Aet

         On July 21, 2010, President Obamasigned tho Dodd-Prank Wall Street Refotm and Consumer
         Protection Act ("Dodd-Fnmk Acf' or "Dodd-Frank"), Pub. L 111-203, 124 Stat. 1376 (201 0).
         Tide vn of the Dodd-Frank Act amended the Commodity Exchange Act to establish a
         comprehensive new regulat~ framewOik for swaps and security-based swaps. In order to
         implement the Dodd-Frank Act, the Commission has identified 30 areas where rules will be
         necessaty. Many of these rules will require or result in cooperative efforts with the Securities
         and Exchange Commission or other fedeml agencies. In addition, the Dodd-Frank Act calls for
         numerous studies and other undertakings by the Commission, some also with cooperation ii'om
         other agencies. The Commission recognizes that many of the new rules required under Dodd­
         Frank must be adopted within 180 days. The magnitude ofdds undertaking under a compressed
         timeline during FY 2011 presents a serious management challenge.




                                                         2




                                                                                                 Appendix I, page 8
U.S. Commodity Futures Trading Commission                                                              REDACTED
Office of the Inspector General                                                                          byCFTC




        During the past year CFfC staff and Commissioners have met more than 1,000 times with
        members of the public to discuss rules proposed under Dodd-Frank, and have conducted 14
        public roundtables. Additionally, the Commission bas received more than 25,000 comment
        letters pertaining to Dodd-Frank. The Commission bas held 20 public meetings to vote on
        various Dodd-Frank matters, and more meetings are scheduled this year and into next year. The
        Commission has issued nearly 60 proposed rules, noti~ or other requests seeking public
        comment, as well as 22 final rules, interim final rules, and exemptions, but implementation is not
        yet complete.

        In order to address the new regulatory mandates stated in the Dodd-Frank Act, the Agency has
        reorganized into 4 Divisions and 7 operating offices. Operational challenges associated with
        Dodd-Frank implementation remain, in our view, a serious management challenge.

        DIG Statement 2010

        Humaa Resource Expansion and Maaagemeat

        The Commission's new responsibilities under Dodd-Frank significantly increased its workload.
        By the end ofFiscal Year 2010, the Commission bad on-board 687 employees, which is 58
        below the 745 FTE CFrC requested to carry out our pre-Dodd-Frank authorities. To fully
        implement the Dodd-Frank reforms, the Commission states it requires an additional 398 FTEs.
        Rather than 398, the President's FY 2011 Budget provided for hiring only 238 additional
        positions. CFTC is requesting an additional 160 FTBs for FY 2012 to staff areas of critical need.
        However, the current budgetary limits imposed by the government-wide continuing resolution
        will significandy impact the CFfC's ability to hire any additional employees during FY2011.
        Should Congress lift the continuing resolution, the CFfC will need to dramatically expand its
        Human Resource fimction to meet and manage the CFTC's need for additional staff and training
        to address the requirements ofDodd-Frank Act. We view the possibility of a rapid and dramatic
        increase (35% staff increase in FYI I) in new employees to address new rules over newly
        regulated markets, such as swaps, a significant JD&Dagement challenge during Fiscal Year 2011.

        llJH!!;B.
        During Fiscal Year 2011 the agency secured additional appropriations and staff. The CFfC's
        2011 spending plan accommodated 717 FTEs. It is our understanding, based on the President's
        Budget Submissio~ that CFrC may increase to 983 staff years- an increase ofover 200 staff
        years- for FY 2012 and, accordingly. we restate Human Resource Erpansion tmd Management
        as a serious and continuing management challenge in the coming fiscal year.




                                                        3





                                                                                                Appendix 1, page 9
U.S. Commodity Futures Trading Commission                                                              REDACTED
Office of the Inspector General                                                                          byCFTC




        Most Serious Management ClaaDeages for the comlDg year

        Two new issues that are likely to cballenge CFrC management in the coming year are:

        Eftident Deployment or laf'ormation Teelmology Resources

        Aa:ording to current data, over eighty percent of futures and options trading on the Chicago
        Mercantile Exchange are transacted electronically. We believe that expanded jurisdiction over
        swaps will increase the volwne ofelectronic trading the Agency will monitor. As a result ofthis
        structural shift in futures trading (from floor based open outcry to electronic platfonns), the
        CFTC bas requested from Congress and received additional resources to facilitate electronic
        surveillance.

        Congress in FY 2011 authorized a minimum of$37.2 million for ''the highest priority
        information technology activities of the Commission." In response to this congressional
        directive as well as the Agency's added responsibility over the swaps marketpla~ the Agency in
        FY 2011 allocated over $42 million dollars towards technological modernization (21% ofFY
        2011 appropriations). Approximately two thirds ofthis budgeted commitment was targeted
        towards automated data processing systems to modernize the Agency's systems for capturing
        and processing market related data. We identify efficient deployment ofinformation technology
        reso~ as a serious management challenge for the coming year.

        Espanding Delivery orCustomer Protection Resources and Consumer Education

        Section of748(g) ofthe Dodd-Frank Act added section 23(g) to the Commodity Exchange Act to
        establish within the Treasury of the United States a revolving fund that will be available to the
        Agency for the payment ofwhistleblower awards and education initiatives. The new Customer
        Protection Fund may be funded - up to $100 million- by civil monetary penalties collected
        through the Commission's enforcement program that are not otherwise distributed to victims. At
        the end ofFY2011 the Customer Protection Fund totaled over $23 million dollars. On October
        24, 2011, an initial Office ofthe Inspector General financial statement audit ofthe Customer
        Protection Fund resulted in an unqualified opinion on the financial statements, which is
        encouraging.

        Increasingly, the Customer Protection Fund's resources and commitments will demand
        significant management attention. This new commitment to wbistleblower protection and
        education will challenge the Agency to effectively manage decisions regarding additions to and
        awards from the CPF, develop its organizational structure, and prudently manage significant
        additional resources. We are encouraged that the agency will soon select management for the
        startup Customer Protection Fund and Consumer Education initiatives, but nevertheless we co1mt
        the creation of this new program among the most serious management challenges facing the
        Commission in the coming year.




                                                       4




                                                                                             Appendix I, page I 0
U.S. Commodity Futures Trading Commission 	                                                                       REDACTED
Office of the Inspector General                                                                                     byCFTC

                                                                                                               Attachment 3




                                                                  FY 2012 President's Budget &PelfolmaDce P1aa

           APPENDIX 5
           Acquisition of Additional Office Space
           Over the last two years the CFTC has worked diligently to increase its seating capacity and redesign its
           work spac:e to accommodate newtedmology. Over 230 more employees are on the payroll tbali at the
           end of FY 2007· A significant uptick in contract staff in the information technology area, visiting
           academies, interns. and student volunteers also need to be housed.
           'l1le CFTC has reworked its leases in Washington, DC, Chicago,ICansas Ci1if, and New York to expand
           the size of its spaee, extend the terms of the leases. and renegotiate priciug in its favor. Additionally.
           CFI'C has sought to leverage its space configuration to enhance its operational capabnities. e.g.,
           marlcet watch moms, produetivity and tecltnology hub, hearing room with webcasting capability, and
           video conferendng.

           The result of this wolk has been to bring down leasing costs as a percentage of the annual budget,
           whDe increasing the total space footprint from 249,964 to 406,7'11 square feet. For exam~ in PY
           20071easing costs were 12 percent of the budget whJle in FY 2010 they consumed 7 percent of the
           budget.

            How Much Does Space Cost and How Much Space is CFTC Leasing?
           The display below depicts the CFI'C Budget for space lease costs. The FY 2012 budget request Is for
           $3o8 million and supports an FI'E level of 983 and approximately 28g contractors, the majority of
           whith would support information technology.

           Space Lease Cost (Including Pass-Through and Utilities Where Applicable)

                                           FY:zo10           FY2011        PY2012
                                             Adwa1                         Ramal
                                            $(000)           $(000)         $(000)

                   Wosbi~DC                 $8.370           $ti.57J        $14.118

                   alb&o                    $1,66o            $1,1!5        $a.S7a
                   New York                 $2,331            $1.293        $2.605
                   Kaasasaty                  $188             $188           $721
                   Coop Site                  !!a               !2!!           !2•

                                                         -
                   Total                   $12,632           $14.297       $20.507



           Rentable Square Feet Data

                                           FY:zoao           FY:aou        FY:zo12
                                            .Adwll                         Request

                   WasJdaatoD DC            t6J385           274.568       288,395

                   ~                        40.750            60,412        6o.412
                   NewYork                  S9.s63           39.363         6opoo

                   IWasuaty                  ~               92428          92428

                   'lblal                  249.964           4o6.77J       441.135




                                                                                                               ID




                                                                                                       Appendix I, page 11
U.S. Commodity Futures Trading Commission                                                                   REDACTED
Office of the Inspector General                                                                               byCFTC



                                                                                                       ..    t   I



                                                                                               Attachment 4

                      Considerations Associated with Sub-Leasing Kansas City Office Space


         CFTC currently leases 24,362 rentable square feet (rsf) ofspaee on the fifth and sixth floors of
         4900 Main Street in Kansas City, MO. There are a nmnber ofconsiderations affecting the
         viability of any plans to sublease this space, as follows:

             • 	 Prevailing fiscal guidance informs that several appropriations law principles come into
                 play. First, proceeds from the sublease likely cannot be used by CFTC to offset its rental
                 obligations, but instead will need to be deposited with Treasury as a miscellaneous
                 teeeipt. Second, the use ofamounts paid by a lessee under a sublease, even if paid
                 directly to the landlord, could be interpreted as an augmentation ofCFTC's
                 appropriations. These restrictions and prohibitions could offset any benefits to the
                 Commission associated with subleasing the space.

             • 	 IfCfTC does sublease its space, its up-front out ofpocket costs prior to receipt ofrent
                 from a sublessee are significant, and include: (I) real estate commissions payable to both
                 parties' brokers; (2) tenant allowance payable to the sublessee; and (3) legal fees
                 associated with documenting the transaction. These costs could easily total $700,000 or
                 more, which amo\Dlts to almost 16 months ofbase rent under CfTC's current lease.

             • 	 Additionally, CFTC could expect somewhere in the neighborhood of 12 months of
                 vacancy prior to collecting sublease rent This is the period for marketing, space
                 construction and rental abatements. Total cost to the Commission in base rent and
                 estimated pass-throughs payable is about $570,000, bringing the total cost ofexecuting a
                 transaction to approximately $1.3 million or more.

             • 	 CFTC's space is considered a large tenancy in the Kansas City market-the typical
                 leasehold is more in the range of8,000 to 10,000. Consequently, CFTC could be
                 required to subdivide its space, thereby incurring additional costs, or secure lower rent in
                 exchange for convincing a subtenant to take more space than it requires.

            • 	 Although CFTC's lease does not restrict its rights to sublease space, CfTC will remain
                liable to the landlord for payment ofrent and its other lease-related obligations through
                lease expiration in April of2021.

         The question of CFrC terminating all or a portion of its lease for the convenience ofthe
         government in lieu ofsubleasing the space bas been raised. However, CfTC leases (and for that
         matter GSA's leases) do not contain Tennination for Convenience ("T for Cj clauses pemrltting
         the Government to do so. The GSA Board of Contract Appeals bas held the T for C clause
         inappropriate for the lease ofreal property.




                                                                                                                     10 





                                                                                                Appendix 1, page 12
U.S. Commodity Futures Trading Commission                         REDACTED 

Office of the Inspector General                                     byCFTC 





                                  APPENDIX2

OED Response to the March 31, 2014, OIG Review ofLeasing and Occupancy Levels
       ofthe Kansas City Regional Office ofthe CFTC- Discussion Draft
                                    May 14,2014
U.S. Commodity Futures Trading Commission                                                                      REDACTED 

Office of the Inspector General                                                                                  byCFTC 




                           U.S. COMMODITY FtJT1JRES TRADING COMMISSION 

                                                  Three LafayeUe Centre 

                                       1155 21st Street. NW, Washington. DC 20581 

                                               Telephone: (202) 418-6160 

                                                Facsimile: (202) 418-6541 

                                                       www.cttc.gov




          To:            Roy La~ IDspector General                                                 Q, ___,.,... 

          From:          AuthonyC.Thompso~~veDirector~                                     C OfliJJ/11 ~                    

          Date:          May 14,2014 

          Subject 	      OBD response to ~e March 31,2014, OIG Rwiew of t13ing and Occupancy 

                         Levels ofthe Kansas City Reglolflll 0./ftce ofthe CFIC- Discussion Draft. 


          OED appreciates the opportunity to review and comment on the 010 study titled RIMew of 

          Leasing and Occupancy Levels oftlu: Kansas City Regional Office ofthe CFTC- Discussion 

          Drqft. We certainly agree that CFrC should strive to efficiently use government space and 

          maximize ~yer reso~ and strongly believe we have pursued this objective. 

          We~ several changes to the Discussion Drqft for which we would appreciate your 

          consideration (see attached). The nugority ofour suggestions refer to what we believe to be 

          fi1ctual eums in the Review and we explain those errors in the inserted comments in sufficient 

          detail We also want to emphasize an important omissi~ contained in several prior OIG's 

          ·~highlighting the need to consider the need for CFfC expansion as a part ofour planning 

          proCesses; we believe is germane to this Review, which I will discuss further in this document 


          Based on CFI'C's current situation, we acknowledge there is excess ~t space in the,!_{ansas 

          Ci1y Office. As OED has previously shared with OIG more than a year ago, and in the              .. 

          December 30, 2013, report that you attached. we hav~ and will continue to m.Onitor the vacancy 

          situation as well as review potential optious to address this issue. We are d9iDg 1his, but we must 

          also continue to plan, at some level, for the possibility that CFTC will receive all, or a significant 

          part of itS budget request. If we subleased or renegotiated our lease down to zero excess capacity 

          in Kansas City and elsewhere. o~y to find out that we received our full budget reQuest (or a 

          substantial portion thereof), we would have to reacquire space that most likely would; (1) not be 

          contiguous or even in the same building, (2) would take more than a year to lease and p~ for 

          occupancy, (3) potentially be more expensive, (4) wtimately reduce the effectiveness o~~in 

          teims ofcontinuity ofopemtions, and (S) be an increase to our cunent "sunk" costs. · 


          A number ofour Dilectors that reviewed your Discussion~ also reiterated that they are very 

          interested in increasing the staffin Kansas Ciiy, but have. not had the Capacizy to hire due to 

          budget constmints. Moreover, the Kansas Cit;y Regional Administrator (RA) stated that since the 

          !!all of2010, ofthose vacancies which have occuned, the current RA has reviewed hundreds of 

          applications, many with outstanding capability to support the primary missioDS ofexaminations 

          and audits as pedimned by the Kansas City stafL The potential pool is substantial Many of 

          these individuals ultimately where not hired when CFrC's ability to increase staff was put on 

      ~   hold last &11. Specifically, the Regional Administrator and Division Directors went on to state




                                                                                                      Appendix 2, page I
U.S. Commodity Futures Trading Commission                                                                   REDACTED 

Office of the Inspector General                                                                               byCFTC 





         that there is an abundance of highly qualified CPAs, auditms, economists, lawyers, etc.
         interested and highly qualified to perfonn the work ofthe CFrC at the Kansas City Regional
         Office.
         The President's Budgets, since FY 2011, support a level of staff and con1ractoiS that would fully
         occupy all leased space. The CFfC was transparent about the space it planned t9lease and what
         was leased. CFTC received Congressional inquiry into CI?"C's ability to house staff if it were
          given its requested budget. CFfC believes 1hat it should "prudently'! plan for a resource and
          staffing level as suggested by the administration and oontained in the President's Budget. This is
         .one of the reasons CFfC discussed its leasing plans and accomplishments in its prior year, and
          cuumt FY 2015 budgets, submitted to the Administration, Congress, and the public.

         OIG sbared the same concern with CFI'C and others through its annual Inspector General's
         .Assessment ofThe Most Serious Management Challenges Facing the CFI'C. In November 2009,
         the OIG raised questions about CFfC's ability to address a "40016 increase over existing staffing
         levels-a considerable cball~e for any organization." In November 2010, OIG specifically
         discussed that: "the Commission reguested in the President's FY 2011 Budget 745 FTB for Pre­
         Dodd..Prank Authorities and 119 FI'B to implement Dodd-Prank authorities, for a total of864
         FrB." This was called a ''serious management cballenge." In November 2011, 010 ~ "The
          Commission's new responstOilities under Dodd-Frank significantly increased its workload. By
         the end ofFY 2010, the Commission had on boant 687 emplo~ which is 58 below the 745
         FIE CFI'C requested to cmy out our pro-Dodd-Frank authorities. To fully implement the
         Dodd-Prank reforms, the Co~on states it requires an additiona1398 FIBs." 010 went on
         to state: "We.(OIG) view the possibility of~rapid and dramatic increase (35% staffincrease in
         PYll) in new employees to· address new rules over newly regtilated markets, such as swaps, a
         significant management challenge during FY 2011." The update from 1he prior year further
         stated: "During PY 2011 the agency secured additional appropriation$ and staff. The CFI'C's
         2011 spending plan accommodated 717 Frns. It is our (010) undemtanding, based on the
         President's Budget Submission that CFTC may~ to 983 staff years- an increase ofover
         200 staff years- for 2012 and, accordingly, we restate Human Resource EXpansion and
         ~as a serious and continuing management chall~ in the coming fiscal y~."

         Over time, the clear expectation by both the CFTC and the OIG was that CFTC may expand
         rapidly and significantly in the near-term. When one considers the potential for growth, albeit
         the prospect may have diminished recently from your perspective, since wholesale fUnding
         increases have not occurred to dat~I tbink we mutually agree at some level, the potential for
         growth cohtinues to create a serious management challenge in regan:l to the capacity to hire,
         inake productive, and house a large influx of staff over a very short perlod. Our four budget
         ~ since FY2011 have not materialized in full fbndhJg as advocated, but there have been
         incremental increases in CFI'C fbndhJg over this period, to include the most recent increase of
         $20M received in the PY14 Budget. Due to this most recent experience, the potential for
         additional fUnding· in-line with our FYlS Budget request does not eliminate future funding
         increases fiom the realm ofposs1oility. Therefore_ we have to plan and remain p()stured for the
         possibility of:fully utilizing some, ifnot an ofthe excess capacity in which we me contractually
         obligated into the foteSeeable future.
                      I




                                                          2




                                                                                                  Appendix 2, page 2
U.S. Commodity Futures Trading Commission                                                                REDACTED 

Office of the Inspector General                                                                            byCFTC 





         ApiD. we aclmowledge CFfC bas excess leased space that is unoccupied for c:urreot staffneeds.
         Yet, CFIC does DOt believe that ca1eadar year 2014 is the time to pe:rmaneotJ.y alter the amount
         ofleased space zesulting in an owmigbl Rduction in the apcy's struc:tma1 foot print. 1bis is
         ctuo·in large partto the need for additiODBI staffto fWfill the CFTC's mission and the unWaverlog
         Administration's support ofthe CFrC expaasion efforts through the FY2015 President's
         Budget. It is also important to note that the FY2015 Budget s:equest is tho first budget that is
         based on Deariy all ofthe Dodd-Frank rules being fiDal. This plaa:s the CFTC in a better
         position mr requesting audjustifying resources as we fie no longer specidating about role
         1equinnnmts.

         You inquiied about our ability to give back space, or sublease u an iJ;nrnMiate solution to ~educe
         space and costs. In answer, this would not be a timely or optimal solution due to severalfitctors.
         The most important being that ifCFTC subleased part ofthe KC leased space, or retumed space
         to the building owner, it would be very difficult ifnot impossible to get this or other contiguous
         space back. CFrC still adamantly believes it needs additional staff to fulfill its mandated
         mission. It is anticipated that all leased space will be fully occupied ifthe CFTC receives the FY
         2015 Plesident's Budget Request. On the subleasing issue, CPTC has received a legal opiDion
         indicating that it has extJemely limited ability to sublease space and that any return of space to
         the landlord WO!lld bave to be done by mutual agreemeot. IfCFTC were able to sublease space,
         it would not be able to Jttain lease payments and would be required to deposit them to the
         Treasury as mi.on:JiaJII'lOus receipts, thereby providing no financial Jeliefto the agency. The
         CFI'C bas now laigely completed the rule writing eft'ort and is makiog its best case fur more
         staffon known·as opposed to anticipated rcquiremeats.
                             .
         In the interim, and especially ifit appears no additional f\mding will be mrth coming in our
         FYI5 Budget request, we will pursue alternatives as suggested in the 010 Study, with fUll
         Owmission ~to restructure the Kansas City Office space to "right size" to fit tho current
         staffneeds at that location.

                 u,,...   II I :
                                   ~-you would like further e~tplanations, please contact me or
                                    my fBusiness Manapnent and PlanniDg.

         Again, thaDk you for your Review and the opportunity to comment.




         cc: 	        Acting Chainnan Wetjeo
                      ('.ommis$oner O'Malia


                                                             3




                                                                                                 Appendix 2, page 3
U.S. Commodity Futures Trading Co mmission                                          REDACTED 

Office of the Inspector General                                                       by CFTC 





                                       APPENDIX3

                                              Maps

"Census Regions and Divisions of the United States," U.S. Census Bureau Map
(available at: http://www.census.gov/geo/ maps-data/maps/pdfs/ reference/us regdiv.pd:!).

"Admission of States and Territorial Acquisition," U.S. Census Bureau Map
(available at: http: //www.lib. utexas.edu/maps/united states/territory .jpg).
U.S. Co mmodity Futures Trading Commiss ion                                                   REDACTE D 

Offi ce o f the Inspector G eneral                                                              by CFTC 




"Census Regions and Divisions of the United States"
U.S. Census Bureau Map
(availabl e at: http://www.census .gov/ geo/maps-data/ maps/ pdfs/reference/ us regdiv.pd:l).




   <::
   "




              I                                                                     (")
                                                                                    CD
                                                                                    :::s
                                                                                    en
                                                                                    c::
                                                                                    en
                                                                                    :::0
   <::                                                                              CD
   "                                                                                (,Q
                                                                                    -·
                                                                                    0
                                                                                    :::s
                                                                                    en
                                                                                    Sl)
                                                                                    :::s
                                                                                    a.
                                                                                    0
                                                                                    s.
                                                                                    ~.
                                                                                    0
                                                                                    :::s
                                                                                    en
                                                                                    a..... 
 

                                                                                    ::::::r
                                                                                    CD
                                                                                    c
                                                                                    :::s
                                                                                    ;::;:
                                                                                    CD
                                                                                    a.
                                                                                    en
                                                                                    ~ 

                                                                                    en




                                                                                 Appendi x 3, page 1
U.S. Commodity Futures Trading Commission                                            REDACTED
Office of the Inspector General                                                        by CFTC




"Admission of States and Territorial Acquisition"
U.S. Census Bureau Map
(available at: http://www. lib.utexas.edu/ maps/united states/territory.jpg).




                                                                                Appendix 3, page 2
